No. 20-138

 

 

In THE
Supreme Court of the United States

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
et al, Petitioners,

Vv.

SIERRA CLUB, et al., Respondents.

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
et. al., Petitioners,

v.
STATES OF CALIFORNIA AND NEW MEXICO, Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF IN OPPOSITION FOR THE STATE RESPONDENTS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,374 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 16, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
